In the

Supreme Court of the United States
October Term, 2019

Kwame Anderson,
Petitioner,
v.
United States of America,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE SECOND CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Kwame Anderson, requests leave to file the annexed Petition for a
Writ of Certiorari to the United States Supreme Court for the Second Circuit without
prepayment of costs and to proceed in forma pauperis pursuant to Rule 39. The United
States Court of Appeals for the Second Circuit appointed counsel, Robin C. Smith, under
the Criminal Justice Act of 1964, 18 U.S.C. Section 3006A, to represent Petitioner on
August 9, 2018. Petitioner, on information and belief, is indigent.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 12, 2020
San Rafael, California

ROBIN C. SMITH, ESQ.
Law Office of Robin C. Smith,
Esq., P.C.
Attorney for Petitioner
802 B Street
San Rafael, California 94901
(415) 726-8000
rcs@robinsmithesq.com

